No. ______
In the

Supreme Court of the United States
__________________
SHELIA HOLMES,
Petitioner,
v.
GENERAL DYNAMICS MISSION SYSTEMS, INC.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
RICHARD F. HAWKINS, III
Counsel of Record
THE HAWKINS LAW FIRM, PC
2222 Monument Ave.
Richmond, VA 23220
(804) 308-3040 (telephone)
(804) 308-3132 (fax)
rhawkins@thehawkinslawfirm.net
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether an employer’s steel-toed shoe
requirement is an essential function of a disabled
employee’s job for purposes of determining whether she
is a “qualified individual” under the ADA where the
employer had not required the disabled employee to
meet that requirement for more than a decade due to
her disability and, as well, had allowed a similarlysituated employee to be excepted from the
requirement?

ii
PARTIES TO THE PROCEEDINGS
Petitioner is Shelia Holmes. Respondent is General
Dynamics Mission Systems, Inc. (“General Dynamics”
or the “Company”).
STATEMENT OF RELATED PROCEEDINGS
• Holmes v. General Dynamics Mission Systems,
Inc.; No. 19-1771 (4th Cir.) (opinion issued and
judgment entered on December 9, 2020).
• Holmes v. General Dynamics Mission Systems,
Inc.; 1:18cv19 (W.D. Va.) (order granting
summary judgment on July 1, 2019).
There are no additional proceedings in any court
that are directly related to this case.

iii
TABLE OF CONTENTS
Questions Presented . . . . . . . . . . . . . . . . . . . . . . . . . i
Parties To The Proceedings . . . . . . . . . . . . . . . . . . . . ii
Statement Of Related Proceedings . . . . . . . . . . . . . . ii
Table Of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . v
Petition For A Writ Of Certiorari . . . . . . . . . . . . . . . 1
Opinions Below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statutory Provisions Involved . . . . . . . . . . . . . . . . . . 1
Statement Of The Case . . . . . . . . . . . . . . . . . . . . . . . 2
A. Holmes’ Disabling Conditions. . . . . . . . . . . . . 2
B. Holmes’ Work History At General Dynamics
..................................... 3
1. For Fifteen Years, Holmes Did Not Wear
Steel-Toed Shoes On The Job And It Was
Not A Problem . . . . . . . . . . . . . . . . . . . . . . 3
2. In 2013, Notwithstanding That Nothing
At All Changed In Holmes’ Working
Conditions Or Her Other Work Duties,
General Dynamics Refused To Allow
Holmes To Continue To Wear Her Normal
Tennis Shoes At Work . . . . . . . . . . . . . . . . 4
C. General Dynamics’ So-Called Steel-Toe
Footwear Requirement . . . . . . . . . . . . . . . . . . 6

iv
D. General Dynamics Rejected Holmes’
Proposed Accommodation Even Though (i) It
Had Allowed Exactly That Accommodation
For 15 Years, (ii) It Made A Similar
Accommodation For A Similarly Situated
Employee; (iii) OHSA Interpretations Allow
For Accommodations; And (iv) It Never
Cal led O HSA To Inquire About
Accommodations . . . . . . . . . . . . . . . . . . . . . . . 8
E. The Underlying Litigation . . . . . . . . . . . . . . 10
Reasons For Granting The Writ . . . . . . . . . . . . . . . 13
I. This Case Presents An Important Question Of
Federal Disability Law . . . . . . . . . . . . . . . . . . . . 13
II. The Fourth Circuit’s Decision Conflicts With
Precedent From The Seventh Circuit And This
Court’s Precedent In Tolan v. Cotton. . . . . . . . . 20
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Appendix
Appendix A Opinion in the United States Court of
Appeals for the Fourth Circuit
(December 9, 2020) . . . . . . . . . . . . App. 1
Appendix B Opinion and Order and Judgment in
the United States District Court for
the Western District of Virginia
Abingdon Division
(July 1, 2019) . . . . . . . . . . . . . . . App. 12

v
TABLE OF AUTHORITIES
CASES
Anderson v. Embarq/Sprint,
379 Fed.Appx. 924 (11th Cir. 2010) . . . . . . . . . . . 9
Holly v. Clairson Indust., LLC,
492 F.3d 1247 (11th Cir. 2007). . . . . . . . . . . 14, 15
Howard v. Gray,
821 F.Supp.2d 155 (D.D.C.2011) . . . . . . . . . . . . 16
Jacobs v. N.C. Admin. Office of the Courts,
780 F.3d 562 (4th Cir. 2015). . . . . . . . . . . . . . . . 15
Kiphart v. Saturn Corp.,
251 F.3d 573 (6th Cir.2001) . . . . . . . . . . . . . . . . 17
Mobley v. Miami Valley Hosp.,
603 Fed.Appx. 405 (6th Cir. Feb. 25, 2016) . . . . 16
Ponce v. City of Naples,
2018 WL 1393748 (M.D. Fla. March 20, 2018) . . 14
Provenzano v. Thomas Jefferson University Hosp.,
2004 WL 1146653 (E.D. Pa. May 20, 2004) . . . . 17
Shell v. Smith,
789 F.3d 715 (7th Cir. 2015). . . . . . . . . . . . . 20, 21
Smart v. DeKalb County, Ga.,
2018 WL 1089677 (N.D. Ga. Feb. 26, 2018) . . . 14
Snead v. Fla. Agricultural & Mechanical Univ. Bd.
of Trustees, 724 Fed.Appx. 842 (11th Cir. 2018)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

vi
Tolan v. Cotton,
572 U.S. 650 (2014). . . . . . . . . . . . . . . . . . . . 20, 21
Williams v. ABM Parking Services, Inc.,
296 F. Supp.3d 779 (E.D. Va. 2017) . . . . . . . . . . 15
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 12111(8). . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 12112(a). . . . . . . . . . . . . . . . . . . . . . . . . . 2
RULES
Fed.R.Civ.P. 56. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OTHER AUTHORITIES
OSHA Std. Interp.1910.132 (2012) . . . . . . . . . . . . . . 9

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Shelia Holmes respectfully petitions this
Court for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Fourth
Circuit in this case.
OPINIONS BELOW
The Fourth Circuit’s decision is unpublished but is
reproduced App at 1-11. The District Court’s final order
granting General Dynamics’ motion for summary
judgment under Fed.R.Civ.P. 56 is unreported and is
reproduced at App. at 26. And the District Court’s
opinion supporting its summary judgment order is
unreported and is reproduced at App. at 12-25.
JURISDICTION
The Fourth Circuit entered its opinion and
judgment order on December 9, 2020. This Petition is
timely filed within timely filed within 1501 days of this
denial, and this Court has jurisdiction under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISIONS INVOLVED
The Americans with Disabilities Act (“ADA”)
provides, in relevant part, that:
“No covered entity shall discriminate against a
qualified individual on the basis of disability in
regard to job application procedures, the hiring,
advancement, or discharge of employees,
1

This time period is the extended period set by this Court due to
COVID-19.

2
employee compensation, job training, and other
terms, conditions, and privileges of
employment.”
42 U.S.C. § 12112(a).
For purposes of this provision, a “qualified
individual” is:
“an individual who, with or without reasonable
accommodation, can perform the essential
functions of the employment position that such
individual holds or desires.”
42 U.S.C. § 12111(8).
STATEMENT OF THE CASE
A. Holmes’ Disabling Conditions.
Holmes is an individual who, from birth, has
suffered from a congenital condition known as
brachymetatarsia -- where a person has one or more
abnormally short or overlapping toes. JA258.2 Holmes
has this condition on more than one of her toes on both
of her feet, so it is called brachymetapodia. Id. The
condition is exacerbated when Holmes wears steel-toed
shoes (or similar shoes as described below) because the
shoes cause friction between her toes and causes
ulcerations on her feet. Id.
Holmes also is a diabetic. JA258. As such,
constricting her deformed toes with steel-toed (or
similar) shoes causes Holmes’ feet to swell and, in turn,

2

“JA” refers to the Joint Appendix filed in the Fourth Circuit.

3
causes her to have circulation problems that can be
extremely dangerous. Id. Such problems can cause the
loss of a limb or, more severely, loss of life. Id.
Both of Holmes’ physical conditions interfere with
one or more of her major life activities, including but
not limited to, walking and standing. JA259.
B. Holmes’ Work
Dynamics.

History

At

General

1. For Fifteen Years, Holmes Did Not Wear
Steel-Toed Shoes On The Job And It Was
Not A Problem.
From 1998 to June 1, 2016, Holmes was employed
by General Dynamics. During that time, she worked
almost exclusively as a shelter fabricator. JA265-269.
She had many different supervisors during that time.
JA272-275.
For virtually her entire history with the Company,
Holmes performed her job duties without wearing
steel-toed shoes or any kind of composite footwear or
other rigid foot protection. JA260. See also JA271;
JA276. Instead, she wore tennis shoes or other loosefitting shoes, which allowed her to work even with her
disabling conditions. JA260.
During this fifteen-year period, Holmes was not
required to wear steel-toed shoes. To be sure, she was
aware as far back as 2003 that the Company was
attempting to implement a requirement for workers
who worked in production and fabrication areas to
wear steel-toed shoes. See JA44-45. However, she had
a doctor’s note that said that her disabling conditions

4
prevented her from wearing steel-toed shoes. JA277278. She testified as follows about how she handled the
issue and the note with her supervisors:
I asked them, they said put it [the doctor’s
letter] in my toolbox and have it handy so if a
supervisor comes by, you can show it to them,
and it laid in the top of my toolbox, and any time
I changed supervisors, I brought them over there
and showed it to them, and no supervisor had no
objection until John Harmon.
JA280.
2. In 2013, Notwithstanding That Nothing
At All Changed In Holmes’ Working
Conditions Or Her Other Work Duties,
General Dynamics Refused To Allow
Holmes To Continue To Wear Her
Normal Tennis Shoes At Work.
Despite fifteen years of allowances with respect to
footwear, in 2013, General Dynamics changed its mind
on the issue and told Holmes that she could not work
without wearing steel-toed shoes or similar footwear.
JA260. Nothing about the nature or structure of
Holmes’ workplace changed in any way at that time.
Id. She still used the same tools and equipment, still
worked in the same work area, and still performed
exactly the same job functions. Id. The only thing that
changed was that General Dynamics now wanted her
to wear steel-toed (or similar) footwear. Id.
In response, Holmes told the Company that she
could not wear such shoes because of her disabilities.
Id. Her then-supervisor looked at her prior doctor’s

5
note, said that was “fine with him,” and said he would
have to speak with Lisa Greenway, who was the
Environmental, Health and Safety Manager at the
Marion plant, and get back to her on whether she
needed to wear steel-toed shoes. JA283. He never
required her to wear them, however. Id.
Further, Holmes told the Company at that time that
other employees had also been allowed to work at the
same plant (in her very same area) without having to
wear steel-toed boots or similar footwear. JA260. She
also followed up with an additional medical note about
not being able to wear steel-toed shoes or outer
footwear involving steel. See JA287.
The Company was unmoved, however, and refused
to allow Holmes to come back to work without wearing
steel-toed or similar protective footwear. In fact,
Holmes’ new supervisor, who had just replaced her old
supervisor, antagonistically told Holmes to “Get off my
damn floor if you don’t have steel toes on.” JA284. He
said this despite the fact that Holmes, as she had done
before with every one of her prior supervisors, showed
him the note from her podiatrist about not being able
to wear steel-toed shoes. JA285-86.
Ultimately, after a long period of time during which
the Company tried to convince Holmes that she had no
choice but to wear steel-toed or similar shoes, it
terminated her. According to General Dynamics, it
determined that Holmes was “unqualified” for her
position because she was, in the Company’s eyes,
“unable to wear safety compliant foot protection that is
required of all employees working in production areas.”
JA288. General Dynamics also told Holmes that it had

6
failed to identify a “reasonable accommodation that
would allow [her] to meet [its] uniformly applied safety
requirement” with respect to safety footwear. Id.
C. General Dynamics’ So-Called Steel-Toe
Footwear Requirement.
In addressing the issue of wearing steel-toed (or
similar) shoes, General Dynamics has professed that,
at all relevant times, it has required its employees who
work in production areas (such as Holmes) to wear
steel-toed shoes, or similar protective footwear, as part
of their conditions of employment. Id.
Indeed, in its 30(b)(6) deposition, the Company said
it had had this footwear policy in place for decades and
certainly as far back as 1998, when Holmes was first
hired. JA293. In its termination letter to Holmes
(JA288), in its EEOC position statement (JA296-301
page 5) and even in its sworn Interrogatory Answers
(JA302-318, page 5), the Company maintained that this
policy has been “uniformly applied.” The Company also
went even further in its Interrogatory Answers,
stating, upon information and belief, that other than
Holmes, none of its Marion, Virginia employees had
been terminated between January 1, 2010 and June 1,
2016 for “failing to wear steel-toed or similar shoes
while on the job at the Facility because all other
employees have complied with the requirement.”
JA310-311 (emphasis added). In other words, the
Company took the position that the steel-toed shoe
requirement has been a staple requirement for its
production-level workforce since at least 1998.

7
But this was never true for Holmes and others like
her (who had medical problems). First and most
importantly, Holmes, from 1998 through 2013,
uniformly did not wear steel-toed or similar shoes.
JA260; JA271; JA276. In fact, she did just the opposite
and wore tennis or loose-fitting shoes for roughly
fifteen years and did so because of her medical
conditions. JA260. None of her supervisors during
that entire time (prior to the fall of 2013) told her that
her medical paperwork was invalid or that her health
conditions did not justify her not having to wear steeltoed shoes. Again, it was just the opposite: her
supervisors consistently – uniformly – accepted her
medical documentation as a valid reason to not have to
wear steel-toed or similar shoes. JA280.
Second, the Company allowed the same exception
for other employees who were similarly situated to
Holmes. Indeed, another production-area employee,
Gary Anderson – aka “Nanner” -- was excused from
wearing steel-toed shoes because he suffered from
hammer toe. See JA292; JA295; JA320-324; JA328329. As Wayne Holmes (Shelia’s husband, who also
worked for many years at General Dynamics before
retiring in 2017), testified, his supervisor, stated in
front of his whole work group at the daily morning
meeting on July 14, 2014 that “everyone” needed to
have on “steel toe shoes except Nanner . . . because he
has hammer toe.” JA320-326. And this meeting
occurred after Holmes was told to “get off my damn
floor” because she was not wearing steel-toed shoes.
Id.
Eventually, General Dynamics revoked the
exemption for Mr. Anderson, but for quite a while, his

8
exemption was in place even though no such exemption
was allowed for Holmes.
Finally, even though General Dynamics maintained
that it has trained its employees about its so-called
uniform footwear policy and that such policy is an
“essential function” of production area jobs such as the
one held by Holmes, (i) the actual job description for
Holmes’ position does not include any language about
requiring safety shoes or steel-toed shoes (see JA105106; JA131-132); and (ii) job descriptions currently
available online for fabricators and other similar
production area employees do not mention wearing
steel-toed or safety shoes (indeed, two of the posting
don’t even mention safety at all) (JA333-335; JA336338; JA339-340).
D. General Dynamics Rejected Holmes’
Proposed Accommodation Even Though
(i) It Had Allowed Exactly That
Accommodation For 15 Years, (ii) It Made
A Similar Accommodation For A
Similarly Situated Employee; (iii) OHSA
Interpretations
Allow
For
Accommodations; And (iv) It Never Called
OHSA To Inquire About Accommodations.
Despite the above facts, General Dynamics rejected
Holmes’ proposed accommodation. It did so, even
though it had allowed exactly that accommodation for
15 years for Holmes; it made a similar accommodation
for a similarly-situated employee (Mr. Anderson, who,
like Holmes, had a medical condition with respect to
one of his feet); OSHA interpretations allow for
accommodations; and no one at General Dynamics ever

9
called anyone at OSHA to determine whether or not it
was possible to accommodate Holmes’ request to avoid
having to wear steel-toed, or similar, shoes at work.
JA294.
Regarding the issue of the Company’s prior
practices for both Holmes and Anderson, in each case,
the General Dynamics supervisors involved agreed that
the request to be exempt from wearing steel-toed shoes
for medical reasons was appropriate. This is important
because, at General Dynamics, like most companies,
supervisors are expected to know company policies and
enforce company policies. JA290-291. In other words,
they are the “on the ground” implementers of company
policy.
Regarding OSHA interpretations, OHSA itself
identifies the use of “non-metallic toe caps” as a
possible accommodation for workers whose diabetes
makes it difficult, if not, impossible to wear steel-toed
shoes. OSHA Std. Interp.1910.132 (2012); 2012 WL
11879053 (JA341-342). In this same context, OSHA
also makes clear that “employers are required to
protect their employees from hazards in the workplace
but the protection afforded must not cause the
employee harm.” Id. (emphasis added). And finally,
that same interpretative guidance shows that the
employer shall select “PPE that properly fits each
affected employer.” Id. (emphasis added).
Even more, when responding to questions about
appropriate footwear policies for employers, OHSA
expressly noted that a court allowed “sturdy work
shoes” to substitute as “steel-toe footwear” and that it
“believes that what is reasonably prudent with regard

10
to foot protection may depend on the frequency of the
employees’ exposure to foot injury, the employer’s
accident experience, the severity of any potential injury
that could occur, and the customary practice in the
industry.” See JA343-344
Finally, OSHA has expressly made clear that with
respect to PPE, “when use of the equipment makes it
impossible for employees to perform their work or
exposes them to more hazardous conditions than they
would be exposed to without such equipment, they are
not required to use the equipment.” JA345-346
(emphasis added). Regarding Holmes, the steel-toed
shoe requirement is not a mere inconvenience, but as
she explained to General Dynamics, it is a severe
health problem because of her congenital foot condition
and her diabetes.
E. The Underlying Litigation.
Following her termination, Holmes sued the
Company for violating the ADA. JA2. After the close
of discovery, General Dynamics moved for summary
judgment, arguing that the steel-toed shoe requirement
was an essential function of Holmes’ job and/or that the
requirement could not be reasonably accommodated.
See e.g., JA33-35; JA36-64.
The District Court heard oral argument and soon
thereafter, granted the Company’s summary judgment
motion. JA519-560; JA561-572; JA573. In doing so, the
Court framed the dispositive issue in the case as
follows:
The key question presented in this case is
whether an employer must wholly exempt an

11
employee from a requirement to wear safety
equipment that is intended to protect her from
serious injury, and to protect the company from
financial harm, because she has a physical
condition that prevents her from wearing the
safety equipment.
JA567-568 (emphasis added).
The Court then
answered the question in the negative, stating:
After reviewing the record evidence and
considering the parties’ arguments, I conclude
that the ADA imposes no such requirement on
an employer.
JA568.
Important to the District Court’s decision was its
belief that “[i]t is undisputed that at least as of 2013,
General Dynamics viewed wearing protective footwear
as an essential function of the Shelter Fabricator
position.” JA570. It also relied on its belief – albeit not
supported with any record evidence – that failing to
enforce the steel-toed safety shoe requirement “could
have jeopardized its certification and standing with
various organizations and agencies.” JA571. And it
posited that “had [Holmes] suffered a foot injury, the
company may have been subjected to lost production
time and increased workers’ compensation costs.” Id.
The District Court, however, conspicuously declined
to grapple with virtually all of the contrary evidence
presented by Holmes. Nowhere in its explanation of its
decision, for example, did the Court address the fact
that – after 2013 – the Company allowed at least one

12
other employee to be exempted from the steel-toed shoe
policy. Nor did the Court address the fact that OSHA
guidance allowed for exemptions from personal
protective equipment requirements when compliance
would hurt the employee – which was clearly the case
with Holmes. And finally, the Court failed to seriously
address the fact that the Company – despite its
protestations of a uniform policy application – had
specifically allowed Holmes (through the actions of her
supervisors) to be exempt from the steel-toed policy for
almost fifteen years. Indeed, the best the Court could
do was to try to minimize this evidence by saying “[t]he
fact that company supervisors had previously been lax
in enforcing the protective footwear policy does not
prevent the company from deciding to tighten
application of its safety rule.” JA571.
On appeal, the Fourth Circuit affirmed the District
Court’s decision, finding that Holmes was not a
“qualified individual” under the ADA. App. at 12. In
doing so, the Court of Appeals rejected Holmes’
evidence that General Dynamic had exempted Holmes
for years from having to meet the steel-toed shoe
requirement. Id. Instead, it said that Holmes could
not be exempted from a valid safety requirement, even
though that’s exactly what General Dynamics had
allowed for years. Id.
This Petition followed.

13
REASONS FOR GRANTING THE WRIT
I. This Case Presents An Important Question Of
Federal Disability Law.
This case presents an important question involving
the rights of disabled individuals under the ADA vis-àvis putative safety requirements – namely, can an
employer do an about-face as to so-called safety rules
and undo an accommodation that it had previously
allowed for years? This kind of behavior is almost
certainly happening on a daily basis at workplaces all
over the country, especially after the worldwide
outbreak of COVID-19. While certain changes in a
company’s safety rules are most assuredly justified
based on new safety concerns, companies should not be
allowed to change existing accommodations for disabled
individuals without validly addressing why their
previous allowances are now no longer valid. That is
what happened below. Guidance from this Court on
what types of allowances are – and are not – allowed is
critical.
Here, General Dynamics did not dispute that
Holmes has a physical condition which substantially
limited one or more of her major life activities. Nor did
it dispute the implications of the medical conditions
suffered by Holmes. Instead, the Company’s main
argument, which both the District Court and the Court
of Appeals accepted, was that wearing “steel-toed,” or
similar protective shoes is an “essential function” of
Holmes’ former job. However, the record evidence
showed that at the very least, a genuine dispute of
material fact existed as to this issue. The case should
have been allowed to go to a jury.

14
The ultimate question here is whether wearing
steel-toed shoes is truly an essential function of
Holmes’ job. Such a question is typically a factintensive one, is decided on a case-by-case basis, and is
usually decided by a jury where there is conflicting
evidence on the issue.
See, e.g., Anderson v.
Embarq/Sprint, 379 Fed.Appx. 924, 927 (11th Cir.
2010) (“Determining whether a particular job duty is
an essential function involves a factual inquiry to be
conducted on a case-by-case basis.”). See also Snead v.
Fla. Agricultural & Mechanical Univ. Bd. of Trustees,
724 Fed.Appx. 842 (11th Cir. 2018) (finding a genuine
dispute over whether twelve-hour shifts were an
essential function of the job); Holly v. Clairson Indust.,
LLC, 492 F.3d 1247 (11th Cir. 2007) (finding a genuine
dispute of fact to exist on the question of whether
punctuality was an essential function of the job); Ponce
v. City of Naples, 2018 WL 1393748 at *8 (M.D. Fla.
March 20, 2018) (finding a genuine dispute of fact on
the question of whether driving a truck, picking weeds,
and sweeping were essential functions of the job);
Smart v. DeKalb County, Ga., 2018 WL 1089677 at *11
(N.D. Ga. Feb. 26, 2018) (finding a genuine dispute of
fact with respect to whether possessing a valid CDL
was an essential function for construction supervisors).
Federal appellate courts, including the Fourth
Circuit, have generally used the following guidance on
how to determine whether a job duty is essential. As
has been explained:
Not all job requirements or functions are
essential. A job function is essential when “the
reason the position exists is to perform that

15
function,” when there aren’t enough employees
available to perform the function, or when the
function is so specialized that someone is hired
specifically because of his or her expertise in
performing that function. 29 C.F.R.
§ 1630.2(n)(2). “[I]f an employer has prepared a
written description before advertising or
interviewing applicants for the job, this
description shall be considered evidence of the
essential functions of the job.” 42 U.S.C.
§ 12111(8). Other relevant evidence can include
“the employer’s judgment as to which functions
are essential,” “the amount of time spent on the
job performing the function,” “the consequences
of not requiring the incumbent to perform the
function,” and the work experience of people who
hold the same or similar job. 29 C.F.R.
§ 1630.2(n)(3).
Jacobs v. N.C. Admin. Office of the Courts, 780 F.3d
562, 570 (4th Cir. 2015).
An employer’s assertion about which functions of a
job are essential, however, “is not, by itself, dispositive;
record evidence describing how employees actually
perform their jobs can create an issue of fact as to
whether a job function is ‘essential’ under the ADA.”
Williams v. ABM Parking Services, Inc., 296 F. Supp.3d
779, 784-785 (E.D. Va. 2017) (emphasis added).
Indeed, if an employer’s judgment was conclusive, then
any “employer that did not wish to be inconvenienced
by making a reasonable accommodation could, simply
by asserting that the function is ‘essential,’ avoid the
clear congressional mandate.” Holly, 492 F.3d at 1258.

16
Here, an analysis of the relevant factors with the
record evidence showed, at best for General Dynamics,
a sharp dispute existed about whether wearing steeltoed shoes on the job is an essential function. Holmes’
years of contrary past experience, for example, showed
it was not. While General Dynamics claimed its “steeltoed shoe” policy had been in place continuously since
at least 1998, this was not true for the fifteen years
between that same time and 2013 -- when Holmes
neither wore steel-toed shoes nor was required to wear
them. To the contrary, she performed her job for that
entire time without incident and remained a “qualified”
employee during that entire period time. Nothing about
the so-called policy changed during these fifteen years,
and nothing about the risks or hazards for Holmes’ job
did either.
As such, this is strong evidence that Holmes was
qualified for her position and that wearing steel-toed
shoes was not a disqualifying job requirement. See, e.g.,
Mobley v. Miami Valley Hosp., 603 Fed.Appx. 405, 411
(6th Cir. Feb. 25, 2016) (reversing summary judgment
for employer based, in part, on disputed evidence about
whether plaintiff could perform the essential functions
of a job for which he requested a transfer, which was
also a job he had previously work; “Since Mobley
worked in the surgery position for several years, it
would be reasonable to infer that MVH thought he was
fulfilling the essential functions during that time,
however those functions might be characterized.”);
Howard v. Gray, 821 F.Supp.2d 155, 164-165
(D.D.C.2011) (“Mr. Howard’s prior experience in the
Financial Manager position indicates that travel to
offsite locations was not an essential function of his

17
position, and his inability to travel did not make him
unqualified for the position for purposes of the ADA
and Rehabilitation Act.”) (emphasis added).
The work experience of other General Dynamics
employees who worked in production areas also showed
a genuine dispute of material fact about whether
wearing steel-toed shoes was an essential function of
Holmes’ job. Indeed, the record evidence – from Wayne
Holmes, Shelia Holmes, and even the admissions of
General Dynamics regarding Gary Anderson – showed
that, notwithstanding the Company’s putative steeltoed shoe requirement, the employees “on the ground”
not only did not wear steel-toed, or similar, shoes, their
supervisors – i.e., the “on the ground” policymakers for
the Company – knew this and permitted it.
This past experience – i.e., the work experience of
persons holding the same or similar jobs – at a
minimum created a dispute of fact about whether
General Dynamics can seriously claim that wearing
steel-toed shoes is truly an essential job requirement
for these types of positions. See, e.g., Kiphart v. Saturn
Corp., 251 F.3d 573, 585–86 (6th Cir.2001) (holding
that a jury could consider whether rotating among
assignments was an essential function where, “as a
practical matter, very few if any teams fully rotated
tasks.”); Provenzano v. Thomas Jefferson University
Hosp., 2004 WL 1146653 at*3 (E.D. Pa. May 20, 2004)
(“The past experience of the residents is evidence of
what was an essential function of the job.”).
Third, General Dynamics’ job descriptions – both
the one it provided as part of this litigation and others
publicly available on its website – support the position

18
that wearing steel-toed shoes is not an essential job
function. Indeed, it is particularly probative that the
only true “job description” for Holmes’ position makes
no mention of steel-toed shoes or protective footwear at
all. As for the other job descriptions for production
area jobs, they are conspicuously silent on whether or
not wearing steel-toed shoes is a requirement for the
job.
Fourth, despite General Dynamics’ repeated
protestations during this case that the steel-toed shoe
requirement is mandated by OSHA, several facts
dispute this point. Most notably, the interpretive
guidance issued by OSHA – which is nowhere
discussed in General Dynamics’ summary judgment
memorandum – makes it clear that neither steel
footwear nor composite footwear (which were the only
types of footwear ever considered by the Company) are
the end-all-and-be-all for purposes of OSHA’s PPE
regulations. Instead, “non-metallic toe caps” could have
sufficed, but no one even considered that. In fact,
General Dynamics never contacted OSHA when it was
trying to figure out how to allegedly comply with its
regulations. Instead, it simply assumed – improperly -a strict inflexible requirement about steel-toed shoes.
Just as important, under OSHA interpretive guidance,
employees may be excused from wearing PPE –
including steel-toed shoes – when the equipment would
harm the employee or cause the employee hazards.
Both situations exist here and would have excused
Holmes from a steel-toe shoe requirement. But again,
General Dynamics did not even try to contact OSHA to
discover these additional nuances of OSHA guidance.
As a final point, General Dynamics’ continued

19
invocation of OSHA compliance is undercut by the fact
that it never mentioned – in any specific or express way
– OSHA requirements for steel-toed shoes in either its
EEOC position statement or its termination letter for
Holmes.
For their part, the courts below failed to properly
address these various competing facts. Indeed,
noticeably absent from either the District Court’s or the
Fourth Circuit’s decision was any mention, much less
discussion, of the OSHA guidance, the job descriptions
on the General Dynamics website, and the facts related
to Gary Anderson – who was exempted from the steeltoe shoe requirement all the way through the summer
of 2014 – i.e., at least seven months after Holmes was
removed from the workplace. Instead, the courts
basically gave the employer’s perspective on the steeltoed issue dispositive weight, all on its own. They even
went so far as to articulate hypothetical concerns about
injuries and insurance or strained comparisons to
seatbelts that were nowhere supported by the record
evidence. In fact, any safety concerns – whether valid
or not – are easily in dispute based on the record
evidence of General Dynamics allowing Holmes to work
in her position for 15 years without requiring her to
wear steel-toed shoes. In short, the evidence in the
record was more than sufficient to allow a jury to
determine whether or not wearing steel-toed shows was
an essential function of Holmes’ job at General
Dynamics.

20
II. The Fourth Circuit’s Decision Conflicts With
Precedent From The Seventh Circuit And This
Court’s Precedent In Tolan v. Cotton.
The Fourth Circuit’s decision below also conflicts
with precedent from the Seventh Circuit and with this
Court’s summary judgment decision in Tolan v. Cotton,
572 U.C. 650 (2014).
First, in a particularly compelling and instructive
case, Shell v. Smith, 789 F.3d 715, 718-720 (7th Cir.
2015), the Seventh Circuit held that a dispute of fact
existed as to whether driving a bus (which required a
Commercial Driver’s License that the plaintiff did not
have) was an essential function of a Mechanic’s Helper
position, which was the position of the plaintiff. The
company said it was, even though plaintiff had never
been required to drive a bus in the twelve full years he
had been on the job.
In its decision, the court of appeals rejected the
notion that the position’s job description – which
contained the requirement at issue – was somehow
dispositive on the issue, stating that “the same job
description was in place when [the plaintiff] was hired.
It did not change for all of the twelve years that [the
plaintiff] filled the position.” Id. at 718-719 (emphasis
added). Instead, it said that the company’s contrary
“actual practices” meant that a dispute of fact existed
on the essential function issue. Id. As such, it held
that the “case should be allowed to proceed to a jury.”
So too here. While General Dynamics has touted its
written documents – although the company’s job
description for Holmes’ position does not contain a

21
steel-toed shoe requirement; JA105-106; 131-132 – the
actual practices of Holmes and her similarly-situated
employee materially dispute these documents. As
such, just as the Seventh Circuit did in Shell, which
now stands in direct conflict with the Fourth Circuit as
to how to analyze the essential functions of an
employee’s job, this Court should reverse summary
judgment and allow the case to proceed to a jury.
The Fourth Circuit’s decision also conflicts with this
Court’s decision in Tolan v. Cotton, 572 U.S. 650
(2014). As this Court explained in that case, it
reversed the Fifth Circuit’s affirmance of summary
judgment for the defendant because the appellate
court:
failed to view the evidence at summary
judgment in the light most favorable to Tolan
with respect to the central facts of this case . . .
and . . . improperly “weigh[ed] the evidence” and
resolved disputed issues in favor of the moving
party.
Tolan, 572 U.S. at 657.
The same is true as to the Fourth Circuit’s decision
below. By taking General Dynamics’ “claims” of safety
at face value, by refusing to confront the evidence that
the Company had allowed at least one other employee
(not just Holmes) to be excepted from its steel-toed shoe
requirement, and by failing to even acknowledge the
OSHA authorities cited by Holmes, the Fourth Circuit
(as did the District Court) failed to review the evidence
in the light most favorable to Holmes. In doing so, it
improperly weighed the evidence in General Dynamics’

22
favor and improperly upheld the summary judgment
decision against Holmes.
CONCLUSION
In conclusion, for all the reasons stated herein, the
petition should be granted, the Fourth Circuit’s
decision affirming summary judgment for General
Dynamics should be vacated, and the case should be
remanded to allow Holmes to present her ADA claim to
a jury.
Respectfully submitted,
RICHARD F. HAWKINS, III
Counsel of Record
THE HAWKINS LAW FIRM, PC
2222 Monument Ave.
Richmond, VA 23220
(804) 308-3040 (telephone)
(804) 308-3132 (fax)
rhawkins@thehawkinslawfirm.net
Counsel for Petitioner

